<html>
<title> - THE ROLE OF FEDERAL HOUSING AND COMMUNITY DEVELOPMENT PROGRAMS TO SUPPORT OPIOID AND SUBSTANCE USE DISORDER TREATMENT AND RECOVERY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    THE ROLE OF FEDERAL HOUSING AND
                     COMMUNITY DEVELOPMENT PROGRAMS
                    TO SUPPORT OPIOID AND SUBSTANCE
                  USE DISORDER TREATMENT AND RECOVERY

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         HOUSING AND INSURANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 16, 2018

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 115-112
                           
                           
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-572 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cebfce3cceff9fff8e4e9e0fca2efe3e1a2">[email&#160;protected]</a> 



                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
STEVAN PEARCE, New Mexico            GREGORY W. MEEKS, New York
BILL POSEY, Florida                  MICHAEL E. CAPUANO, Massachusetts
BLAINE LUETKEMEYER, Missouri         WM. LACY CLAY, Missouri
BILL HUIZENGA, Michigan              STEPHEN F. LYNCH, Massachusetts
SEAN P. DUFFY, Wisconsin             DAVID SCOTT, Georgia
STEVE STIVERS, Ohio                  AL GREEN, Texas
RANDY HULTGREN, Illinois             EMANUEL CLEAVER, Missouri
DENNIS A. ROSS, Florida              GWEN MOORE, Wisconsin
ROBERT PITTENGER, North Carolina     KEITH ELLISON, Minnesota
ANN WAGNER, Missouri                 ED PERLMUTTER, Colorado
ANDY BARR, Kentucky                  JAMES A. HIMES, Connecticut
KEITH J. ROTHFUS, Pennsylvania       BILL FOSTER, Illinois
LUKE MESSER, Indiana                 DANIEL T. KILDEE, Michigan
SCOTT TIPTON, Colorado               JOHN K. DELANEY, Maryland
ROGER WILLIAMS, Texas                KYRSTEN SINEMA, Arizona
BRUCE POLIQUIN, Maine                JOYCE BEATTY, Ohio
MIA LOVE, Utah                       DENNY HECK, Washington
FRENCH HILL, Arkansas                JUAN VARGAS, California
TOM EMMER, Minnesota                 JOSH GOTTHEIMER, New Jersey
LEE M. ZELDIN, New York              VICENTE GONZALEZ, Texas
DAVID A. TROTT, Michigan             CHARLIE CRIST, Florida
BARRY LOUDERMILK, Georgia            RUBEN KIHUEN, Nevada
ALEXANDER X. MOONEY, West Virginia
THOMAS MacARTHUR, New Jersey
WARREN DAVIDSON, Ohio
TED BUDD, North Carolina
DAVID KUSTOFF, Tennessee
CLAUDIA TENNEY, New York
TREY HOLLINGSWORTH, Indiana

                     Shannon McGahn, Staff Director
                 Subcommittee on Housing and Insurance

                   SEAN P. DUFFY, Wisconsin, Chairman

DENNIS A. ROSS, Florida, Vice        EMANUEL CLEAVER, Missouri, Ranking 
    Chairman                             Member
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
STEVAN PEARCE, New Mexico            MICHAEL E. CAPUANO, Massachusetts
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
BLAINE LUETKEMEYER, Missouri         BRAD SHERMAN, California
STEVE STIVERS, Ohio                  STEPHEN F. LYNCH, Massachusetts
RANDY HULTGREN, Illinois             JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DANIEL T. KILDEE, Michigan
LEE M. ZELDIN, New York              JOHN K. DELANEY, Maryland
DAVID A. TROTT, Michigan             RUBEN KIHUEN, Nevada
THOMAS MacARTHUR, New Jersey
TED BUDD, North Carolina
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    August 16, 2018..............................................     1
Appendix:
    August 16, 2018..............................................    35

                               WITNESSES
                       Thursday, August 16, 2018

Boggs, David, President and Chief Executive Officer, Opportunity 
  for Work and Learning..........................................     8
Fletcher, Hon. Ernie, Former Governor of Kentucky, and Founder of 
  Recovery Kentucky..............................................     5
King, Edwin, Executive Director and Chief Executive Officer, 
  Kentucky Housing Corporation...................................    10
Minton, Lisa, Executive Director, Chrysalis House................    12
Robinson, Tim, Founder and Chief Executive Officer, Addiction 
  Recovery Care..................................................    13
Thomas, Jerod, President and Chief Executive Officer, Shepherd's 
  House..........................................................    15
Walsh, Sharon L., Director of the Center on Drug and Alcohol 
  Research and Professor, Behavioral Science and Psychiatry, 
  University of Kentucky.........................................    17

                                APPENDIX

Prepared statements:
    Boggs, David.................................................    36
    Fletcher, Hon. Ernie.........................................    40
    King, Edwin..................................................    49
    Minton, Lisa.................................................    52
    Robinson, Tim................................................    55
    Thomas, Jerod................................................    59
    Walsh, Sharon L..............................................    64

 
                    THE ROLE OF FEDERAL HOUSING AND
                   COMMUNITY DEVELOPMENT PROGRAMS TO
                   SUPPORT OPIOID AND SUBSTANCE USE
                    DISORDER TREATMENT AND RECOVERY

                              ----------                              


                       Thursday, August 16, 2018

                     U.S. House of Representatives,
                                    Subcommittee on Housing
                                             and Insurance,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 9:10 a.m., in 
Courtroom A, U.S. District Court of the Eastern District of 
Kentucky, 101 Barr Street, Lexington, Kentucky, Hon. Sean P. 
Duffy presiding.
    Present: Representative Duffy
    [presiding].
    Also present: Representatives Barr and Guthrie.
    Mr. Duffy. The Subcommittee on Housing and Insurance will 
come to order. Today's hearing is entitled, ``The Role of 
Federal Housing and Community Development Programs to Support 
Opioid and Substance Use Disorder Treatment and Recovery.'' 
Without objection, the Chair is authorized to declare a recess 
of the Subcommittee at any time. Without objection, all Members 
will have 5 legislative days within which to submit extraneous 
materials to the Chair for inclusion in the record. Without 
objection, Members who are not Members of this Subcommittee may 
participate in today's hearing for the purpose of making an 
opening statement and questioning the witnesses.
    The Chair now recognizes himself for an opening statement.
    I want to thank our witnesses for joining us as we continue 
to look at how existing Federal Government programs can be 
utilized to combat opioid addiction and substance abuse. Today, 
we will be focused on programs run by HUD (U.S. Department of 
Housing and Urban Development) that help low-income families 
and the poverty stricken.
    I want to thank Mr. Barr for hosting us in the fine city of 
Lexington and commend his leadership on the issue of opioid 
addiction and substance abuse, something that impacts the 
entire Nation. This crisis is not going away and it is only 
getting worse in some areas of our country. According to a 2016 
report by the U.S. Surgeon General, 1 in 7 Americans will face 
substance addiction.
    Opioids are now at the forefront of the fight against 
substance abuse.
    On March 29 of last year President Trump signed an 
Executive Order to establish the President's Commission on 
Combating Drug Addiction and the Opioid Crisis and the House 
began its work by moving legislation. We have passed 50 bills 
related to addressing the opioid crisis ranging from treatment 
and recovery, to prevention, to the THRIVE (Transitional 
Housing for Recovery in Viable Environments) Act, championed by 
Chairman Barr.
    Mr. Barr's bill recognizes that sometimes you have to use 
resources outside of traditional rehab programs to treat 
addicts and help them prepare for becoming a productive member 
of society.
    The THRIVE Act would create a program setting aside 10,000 
housing choice vouchers for individuals suffering from 
addiction. Those people would be able to use vouchers with 
transitional housing nonprofits that focus on maintaining 
sobriety, teaching valuable skills for jobs, and obtaining 
employment as they transition back into society. They'll have 
24 months to complete the treatment program but most 
importantly are able to do so in a drug- and alcohol-free, 
clean, safe, and supportive structured environment.
    I know some of you will be commenting on how this bill 
would work in implementation but Mr. Barr's bill is just one 
idea. You are the ones out there dealing with this through your 
organizations.
    We want to hear your ideas.
    Mr. King, you mention in your testimony needing the 
flexibility to meet specific needs at the local level by 
addressing the 20 percent limitation on tenant-based rental 
assistance for specific properties.
    Ms. Minton, you mentioned Continuum of Care and the 
reallocation process to create new projects.
    Mr. Thomas, you talk about a limited expansion of vouchers 
for graduates of THRIVE-based programs.
    Dr. Walsh, your testimony describes what you are doing with 
the First Bridge Clinic and the PATHWAYS programs.
    These are the ideas we need to hear about that can help us 
to combat the opioid epidemic with government programs already 
in place.
    I look forward to today's discussion as it's one of the 
most important issues we should be addressing today.
    I now recognize the gentleman from Kentucky, Mr. Barr, the 
Chairman of the Subcommittee on Monetary Policy and Trade, for 
an opening statement.
    Mr. Barr. Thank you, Chairman Duffy, and thank you to the 
Housing and Insurance Subcommittee for calling this hearing 
today in my home State of Kentucky, which is truly on the front 
lines of the opioid crisis.
    I'd also like to thank my colleague from the Kentucky 
delegation, Congressman Brett Guthrie for joining our Financial 
Services hearing today. Mr. Guthrie has been a leader on opioid 
issues on the House Energy and Commerce Committee and we are 
fortunate to have him here today to offer his insight.
    We all know that the opioid epidemic is a major health 
crisis that has impacted every community and every 
congressional district. Kentucky has the third highest overdose 
mortality rate in the country. Last fall, President Trump 
declared a National Public Health Emergency and Congress 
recently passed a historic package of legislation to address 
the opioid epidemic through research, treatment, and 
prevention.
    H.R. 6, the SUPPORT (Substance Use-Disorder Prevention that 
Promotes Opioid Recovery and Treatment) for Patients and 
Communities Act that was passed in the House this summer, 
builds upon past resources authorized and funded by Congress 
including the 21st Century Cures Act and the Comprehensive 
Addiction and Recovery Act. I was also proud to support the 
Consolidated Appropriations Act earlier this year that 
appropriated $4 billion, the largest Federal investment to 
date, to address the opioid epidemic.
    But there is more work to be done. Over 115 Americans 
continue to die every day from opioid overdoses. We cannot 
continue to focus our Federal efforts on prevention and 
treatment without looking toward long-term recovery through 
housing, job placement, financial literacy, and life skills 
training.
    Too many individuals find themselves with limited housing 
choices after completing in-patient rehabilitation and are 
forced into housing situations where they are surrounded by 
people using the same illegal substances that they went to 
rehab to stop using. This perpetuates the cycle of addiction 
and prevents individuals from rising above substance abuse.
    The opioid epidemic has also presented a major issue for 
workforce development and job placement. Local employers I meet 
with regularly in Kentucky are struggling to find workers to 
fill even low-skill jobs. According to the CDC, the opioid 
epidemic's cost to our economy now exceeds $1 trillion.
    I was proud that H.R. 6, the opioid package which passed 
the House earlier this year, included my legislation, H.R. 5735 
the Transitional Housing for Recovery in Viable Environments or 
the THRIVE Act. This bill would allow a limited number of 
Section 8 Housing Choice Vouchers to be allocated directly to 
transitional housing non-profits that have evidence-based 
models of recovery and life skills training. I am hopeful that 
the Senate will act swiftly to pass this critical legislation.
    I have also introduced H.R. 5736 the Comprehensive 
Addiction Recovery through Effective Employment and Reentry, or 
CAREER (Comprehensive Addiction Recovery through Effective 
Employment and Reentry) Act, which would address the decline in 
workforce participation as a result of the opioid epidemic by 
encouraging local businesses and treatment centers to form 
partnerships to secure job training, employment, and housing 
options for individuals in recovery. This legislation would 
also give States more flexibility to direct Federal funds 
through the Community Development Block Grant (CDBG) to local 
recovery initiatives. I am grateful to Leader McConnell for 
introducing the Senate companion to this legislation.
    Meaningful employment and a safe place to live are key to 
helping individuals maintain sobriety and rise above poverty. 
Today you will hear from several non-profit, government, and 
academic experts who are on the frontlines of the opioid 
epidemic in Kentucky. They will offer their unique perspectives 
on ways our Federal housing and community development programs 
could be improved or further utilized to fight the opioid 
epidemic.
    Reforms to these programs and greater investment in long-
term recovery would save American lives as well as taxpayer 
funds in the long run by helping more individuals rise above 
addiction and poverty.
    Thank you and I yield back.
    Mr. Duffy. Thank you Mr. Barr.
    I now recognize Mr. Guthrie for an opening statement.
    Mr. Guthrie. Thank you Mr. Duffy, and thank you all for 
being here today. I have heard countless stories of the awful 
effects the opioid epidemic has had on families, communities, 
and the overall workforce. I have been working hard in my 
committee, the Energy and Commerce Committee, to pass 
meaningful legislation that will stop this awful epidemic. The 
SUPPORT bill, H.R. 6 which includes over 50 pieces of 
legislation is currently pending before the Senate. I am 
hopeful the Senate will act quickly to provide relief to so 
many suffering Americans. Most of the 50-something bills have 
come through our committee. And a lot of it comes from hearing 
from people like you, the witnesses here today.
    I wish there was one single bill we could pass and it would 
make the problem go away. It is just not that simple. I wish 
that it was. It is very complicated. And when we hear from 
people like you--and I have heard over the last several days 
even stuff we need to improve in legislation that has already 
been passed out of the House and into the Senate. We do hear 
the insights because you all are the experts, you all are the 
ones on the frontlines dealing with it, and we are trying to--
where there are roadblocks, we are trying to get flexibility, 
we are trying to move things forward.
    And it is very appropriate we are having this hearing in 
this community today. I was in Elizabethtown about 3 or 4 days 
ago going through a recovery center, and the person who was 
walking me through said basically we get them here in residence 
for 30 days, and we can control that environment. Some of them 
leave and whatever, but for the most part, we can get them 
through our 30-day program because we have control. They are in 
our environment.
    He said the biggest gap is the sober-living piece, and so 
it really struck me. I said, well, we are having a hearing on 
something that Congressman Barr has made great efforts and 
great strides to make sure the sober living piece is, one, 
known throughout--the issue needs to be dealt with and, one, 
hopefully given the tools using money that is already going to 
be spent by the Federal Government in housing to give people an 
opportunity and have that full--not just the in-residence 
service but another piece of the bigger wraparound service. But 
it was stated to me that the biggest loss of people in recovery 
is when they get the sober-living part.
    So I appreciate your leadership on this, Congressman Barr. 
I certainly appreciate the Chairman coming to our wonderful 
Commonwealth, and I appreciate having the Governor here as 
well. We got to serve together in Frankfurt when I was in the 
legislature, and I am pleased to have you here and all of our 
witnesses. So thank you, and I yield back.
    Mr. Duffy. The gentleman yields back.
    Again, I want to now welcome our witnesses. Our first 
witness, who actually is the Governor who I didn't recognize in 
my opening statement, Governor Fletcher, former Governor of 
Kentucky and the Founder of Recovery Kentucky, welcome; our 
second witness, Mr. David Boggs, President and CEO of 
Opportunity for Work and Learning, also known as OWL; Mr. King, 
our third witness, Executive Director and CEO of the Kentucky 
Housing Corporation; Ms. Minton, Executive Director of the 
Chrysalis House. Our fifth witness is Mr. Tim Robinson, Founder 
and CEO of Addiction Recovery Care. Our sixth witness today is 
Mr. Jerod Thomas, President and CEO of Shepherd's House. And 
our final witness, but not least, is Dr. Sharon Walsh, Director 
of the Center on Drug and Alcohol Research and Professor of 
Behavioral Science and Psychiatry at the University of 
Kentucky.
    To all of you, welcome. Thank you for giving us your time 
today. Again, this is important for us to get out of the bubble 
of Washington, D.C., and come and take the testimony and 
insights from those around the country who are on the frontline 
dealing with these issues so we can take that insight back to 
Washington to our colleagues.
    The witnesses in a moment will be recognized for 5 minutes 
to give an oral presentation of their written testimony. 
Without objection, the witnesses' written statements will be 
made part of the record following their oral remarks. Once the 
witnesses have finished presenting their testimony, each Member 
of the subcommittee will have a length of time within which to 
ask the panel questions.
    With that, Governor Fletcher, you are now recognized for 5 
minutes.

                STATEMENT OF HON. ERNIE FLETCHER

    Mr. Fletcher. Chairman Duffy and other Members, Congressmen 
Barr and Guthrie, thank you for this opportunity. And, Chairman 
Duffy, welcome to Kentucky. I hope you do get to spend some 
time and see what a wonderful State it is.
    You have my testimony there, but let me just speak a little 
bit from the heart. It is obviously a public health crisis. It 
is a very challenging, complex crisis that we face. There is 
not a simple solution, as has already been noted. And even with 
the reports yesterday, every 7 minutes someone dies of 
overdose, if we look at combining that with alcohol where every 
6-1/2 minutes someone dies from alcohol abuse and its 
consequences, and then if you combine that with about every 12 
minutes someone dies from suicide, many of those suicides are 
related to substance abuse disorder, you can see the complexity 
of the problem of addiction that plagues this Nation.
    Going back 10 years, we looked at models that worked in a 
residential program out of The Healing Place in Louisville and 
the Hope Center in Lexington, Kentucky. It is a residential 
program where folks come in. We use a peer-support 12-step 
model, and we had fairly good efficacy from that. I will say 
that it is not for everyone, and we think we can improve on 
that model.
    But we took that model, we developed some very creative 
funding. This was done by an individual by the name of Don 
Ball. Don Ball is a builder/philanthropist here who had worked 
with the Hope Center. I appointed him as Chair of Housing 
Corporation, and he brought together several funding streams to 
fund the expansion of centers modeled after the Hope Center. 
Now, we have 18 of those. We have 2,100 beds at any one time. 
University of Kentucky's Drug and Alcohol Research Center does 
our surveys. Eighty-four percent are drug-free at 1 year. 
Seventy-five percent are gainfully employed at the end of that 
program. Recidivism rate, as the criminal justice system, is 
very low, and so it is an effective program.
    I will give you the caveat that at the beginning, 30 
percent of folks, as a voluntary program, walk away and it is 
not for them, and I think that would address the need for 
medication-assisted treatment and more of a comprehensive 
approach than just one-size-fits-all.
    The bottom line is we have 18 centers here that are working 
very effectively and transforming lives, and we are taking and 
expanding that nationally. As you look at what we face 
expanding that nationally, let's look at the funding streams. 
We use low-income housing tax credits, we use some other 
Federal home-loan moneys for the capital construction of these 
facilities. That runs about $5-6 million.
    We use Section 8 vouchers, food stamps, per diems from 
corrections because up to 70 percent of our residents come out 
of corrections, whether it is parole, probation, or diversion 
from drug courts. And these are nonviolent offenders. It is a 
good investment for them. They pay a per diem, and as I 
mentioned, the recidivism rate is very, very low for these 
individuals, so it works for the benefit of the recipient, as 
well as for the Department of Corrections in saving money 
substantially.
    As we are taking this nationally, though, what we find is 
that Section 8 housing is a little more challenging to get in 
the operational side of things, and for that reason, we are 
very supportive of the THRIVE Act, Congressman Barr, that you 
have put forward, because it sets aside some of these moneys 
for this type of program. And there are two advantages of that. 
One, we think it recognizes that these programs, when they are 
evidence-based or have some outcomes that show that they work, 
they help make sure that we are not funding programs that don't 
work. Unfortunately, in the recovery industry, let's face it; 
there are some scams out there and a lot of families spend a 
lot of money on recovery only to find that their loved one 
comes back and is not truly recovered or treated. Folks end up 
financially broke trying to get their loved ones the treatment 
they need. So this Act, making a stipulation, focuses on making 
sure that only quality programs are funded. So, thank you, 
Congressman, for that insight.
    As you look at some of our other funding, we are working 
with the Department of Corrections. We have worked with 
Secretary Ben Carson. He has been here to Kentucky. We have met 
with him here, and Congressman Barr was in that meeting. We 
also met with him at his office, and they are very supportive 
looking at how can we work with HUD to make sure that we expand 
these programs and make it available. We are working in other 
States now, and Georgia is one of our first States that we are 
working. We want to expand them in Kentucky because we still 
have a need here. We are also working with other programs. Tim 
Robinson is here, and we are glad to collaborate with other 
programs to make sure that we provide as many people as 
possible with this type of recovery.
    The other thing that I want to say about the congressional 
funding, you have nearly $6 billion that is coming, funding to 
fight this opioid crisis, much of that is going to medication-
assisted treatment because it is the gold standard of 
treatment. Dr. Walsh will address a lot of this.
    In our recovery program, what we find--and we are expanding 
because we see that it doesn't fit everyone. We have 30 percent 
at the beginning that may drop out, and they would likely, very 
likely benefit from MAT, or medication-assisted treatment.
    We also have some folks that end up relapsing as they 
leave, so a program that combines the best of these I think is 
something that Congress needs to make sure that, as you are 
looking at the funding, as you--final passage of these bills, 
that you recognize this full continuum of care.
    These vouchers that are set aside in Section 8, I think are 
very important. Congressman Guthrie, your bill, the 
Comprehensive Opioid Recovery Centers Act, I think is important 
and recognizes the issue we have talked about, so I appreciate 
and hope we can pass that.
    I have a few specific recommendations, and I will close 
with that. One, I would like to recommend obviously passage of 
the THRIVE Act through the Senate as it becomes a part of this 
larger package to fight this public health crisis. There is 
always a challenging--and I think some of the criticism is 
that, well, you may be taking some money from some other folks 
that need it. Let me say there is no greater need than these 
folks that are held captive by addiction. If you look at the 
sequelae of their life, it is abysmal without some kind of 
treatment, so there is no greater need.
    I would like you to consider to take some of the $6 billion 
that you are looking at and making sure that it might be 
allocated toward more of these because we have a proven model. 
It is not the only model, but we have a proven model that we 
can take nationally, collaborating with MAT and collaborating 
with other centers to expand the treatment, and so let me ask 
you to take a look at that.
    I would like to--part of our funding is Community 
Development Block Grants. That is always threatened. The 
President's budget usually cuts those. And when I was in 
Congress, and you all--usually, we have to put them back. But I 
would like you to take a look at a similar program.
    You will find that part of what we are doing--and according 
to the CAREER Act is we want to be able to provide the skills 
that an individual needs in order to enter the workforce. What 
is important in recovery is having meaning and purpose, and a 
good job and a purpose in life with a skill is extremely 
important in preventing relapse. And so I think that is 
important as you look going forward at where you are putting 
the funding. And Community Development Block Grants, this is 
community development, so I would like you to take a look at 
that and see if there is not some other way that you can make 
that funding a little more assured and sustainable because, 
right now, our funding for these programs is sustainable, and 
that is what makes them strong.
    Last, I will recommend--and this is just probably out of 
nowhere and you all don't have the jurisdiction except for--or 
maybe Guthrie in that second-best committee. But this is a 
public health crisis. We have the EOC, Emergency Operations 
Center, activated at the CDC right now for polio. It is 
affecting three countries right now, and they are: Pakistan, 
Congo, and I think Nigeria. It is not activated for this. I 
think it is a perfect center. This is an epidemiological 
problem. It is a public health problem, and I just encourage 
you to take a look at activating the Emergency Operations 
Center out of CDC for this. It will allow them to bring a lot 
of the silos that we have with NIDA (National Institute on Drug 
Abuse), NIH (National Institute of Health), SAMHSA (Substance 
Abuse and Mental Health Services Administration), other parts 
of HHS together.
    So let me close with that and say thank you for this 
opportunity.
    [The prepared statement of Mr. Fletcher can be found on 
page 40 of the Appendix.]
    Mr. Duffy. Thank you, Governor Fletcher.
    Mr. Boggs, you are now recognized for 5 minutes.

                    STATEMENT OF DAVID BOGGS

    Mr. Boggs. Thank you very much. Good morning, Chairman 
Duffy, Congressman Barr and Congressman Guthrie, and other 
guests. It is an honor to address this committee this morning 
in regards to the epidemic of opioid addiction in our Nation 
and the serious housing challenges that this population faces. 
Since housing is a vital step in the recovery and reentry 
process, the Acts that we have already talked about that have 
been introduced by Congressman Guthrie and Congressman Barr, 
THRIVE and CAREER Act and others, will have a major impact on 
abolishing this crisis that we are facing across our Nation.
    Considering that this epidemic touches every family in our 
Nation, something needs to be done in the seriousness of it. 
Just this morning on our national news it was announced that 
the national lifespan for individuals has dropped because of a 
leading factor of drugs, and that is tragic for us to reach 
that point in our Nation today.
    I would like to share with you the role of Opportunity for 
Work and Learning and how it plays with the topic at hand and 
some views of how the Federal Government, through our 
organization, can use existing housing and our community 
development program to complement community efforts to treat 
individuals experiencing the opioid epidemic. OWL provides key 
elements in the transitional path to self-sufficiency through 
job training and employment services.
    Housing and employment definitely go hand-in-hand, so it is 
difficult to successfully maintain one without the other. And 
yet, too often, our offender reentry population, whom we work 
with a great deal, have at least one of these or both of these 
once they are released from incarceration. Consistent housing 
cannot be obtained without employment that will provide enough 
income to meet the demands of either renting or owning in the 
long term. Many of these individuals lose their employment due 
to the challenges faced through inconsistent living through a 
term that we often hear called ``couch surfing,'' and that is 
very real for this population that we all serve, along with the 
homelessness.
    Individuals come to OWL from many different paths. Some of 
them are coming from incarceration, some of them are coming 
from short- or long-term recovery programs, and there are a lot 
of people entering our program that are still struggling with 
the opioid addiction but yet trying to maintain employment. The 
struggle is overwhelming and often leads to more serious 
consequences for these.
    The mission of OWL is, simply, OWL partners with 
communities to help individuals overcome barriers to achieve 
personal and professional growth. We have been doing that since 
1961. But in our Nation there is--annually, 600,000 people are 
being released every year from incarceration, and the number of 
people at risk of falling back into this lifestyle that led 
them there in the first place continues to climb because of 
inadequate housing or the lack of employment. In addition to 
the criminal record preventing these individuals from finding 
jobs, statistics show that ex-offenders far too often have 
limited education and work experience and therefore do not have 
the skills necessary to enter today's workforce with the 
adequate skills.
    The Lexington Manufacturing Center (LMC), which is a wholly 
owned subsidiary of OWL, is an on-site advanced manufacturing 
center that provides training in the essential skills that are 
so desperately needed and demanded by today's employers in 
every job sector. LMC employees earn more than minimum wage, 
and while they are there, they get benefits, the opportunity 
for bonuses, and they have the opportunity to work for other 
companies and earn a greater income because we are just a 
training facility in many aspects.
    The various training programs that we provide such as our 
forklift certification, our manufacturing certification and 
material handling, third-party inspection, kitting, assembly, 
woodworking, all of these offer new opportunities for these 
individuals to reenter into the workplace and become 
successful. The programs that OWL and LMC have in place have 
proven to be successful as a research-based program in the path 
to self-sufficiency and attainment of stable housing and 
employment.
    OWL has maintained a strong partnership with the Kentucky 
Office of Vocational Rehabilitation since its beginning in 
1961. Over these years, our organization has successfully 
provided services for 23,000 individuals in central Kentucky. 
Through OWL's services and programs in Fiscal Year 2018 alone, 
over 74 individuals found full-time employment, not temp 
service or not part-time but full-time employment with job 
benefits. Yet while this is successful numbers, over 60 percent 
of them had some type of opioid and substance abuse while they 
entered our program.
    OWL completely adheres to the work being done with WIOA, 
the Work Innovation Opportunity Act, and we support all the 
mandates of community rehabilitation programs required in that 
through our youth grant, out-of-school youth grant.
    Paul, a good example of our work, came to OWL as a result 
of an ongoing opioid addiction that cost him his home, his 
family, and also some incarceration time. Fortunately, after a 
period of time, Paul became involved at a drug court diversion 
program, and they opened their doors to him instead of the 
long-term incarceration. Today, he is reunited with his family. 
He now has adequate funding and support through his job at OWL, 
and now he has homeownership. This is what we are all striving 
to reach together through this funding mechanism.
    James came to us after serving 24 years in our Federal and 
State judiciary systems and still struggled with opioid 
addiction time after time. But thanks to our partnership with 
community housing agencies that we work with within our 
community, many of them represented here today, James was able 
to begin his pathway to a new life. Today, he has been fully 
employed at OWL for over 5 years and lives independently.
    Paul and James are just two examples of individuals who 
have struggled because of the impact of the opioid addiction on 
their lives. Sadly, they are not alone, as we have already 
heard here today. There is an overwhelming need for housing and 
employment services for others trying to escape the opioid 
crisis in their life. Funding must be accessible--it is not an 
option--it must be accessible for research-based programs like 
OWL and others represented here today and have a proven track 
record of employment training, job placement, and housing. 
Programs that can easily be replicated and expanded upon in our 
individual communities must be provided oversight and guidance 
to establish consistency in collaboration among agencies to 
maximize resources and human capital.
    Yes, we applaud the work being done by this committee and 
the leadership of our local Congressmen in Kentucky through 
bills that have already been sponsored and passed, but the 
battle against the housing and opioid crisis is not just a 
Kentucky epidemic but a national pandemic that has no borders.
    Thank you again for this opportunity to share with you this 
morning.
    [The prepared statement of Mr. Boggs can be found on page 
36 of the Appendix.]
    Mr. Duffy. Thank you, Mr. Boggs. And it has no borders; you 
are right.
    Mr. King, you are recognized for 5 minutes if we can figure 
out the microphone situation.

                     STATEMENT OF EDWIN KING

    Mr. King. Hopefully, you can hear me. Chairman Duffy, 
Congressman Barr, Congressman Guthrie, thank you all for 
holding this hearing. As you said, I am the Executive Director 
of the Kentucky Housing Corporation, the Commonwealth's housing 
finance agency. And on behalf of KHC's board of directors and 
staff, again, we thank you for conducting this hearing and 
affording me the opportunity to speak with you today.
    I want to thank Congressman Barr and Congressman Guthrie 
publicly for bringing attention to the problem of the opioid 
addiction in the Sixth and the Second Districts. Thank you all. 
Congressman Barr, the passage of your bill, the Transitional 
Housing for Recovery in Viable Environments, the THRIVE Act, 
demonstrates your commitment to housing solutions for those on 
the road to recovery, so thank you for that.
    It is my pleasure to share information about Kentucky's 
accomplishments through leveraging housing resources to help 
our citizens on the path of recovery from substance use 
disorders. There are multiple effective recovery strategies 
depending on the personal circumstances of those that are 
caught in the grip of addiction, as Governor Fletcher has 
alluded to. Access to stable housing is a basic human need and 
one of the primary social indicators of public health.
    One of the most successful recovery strategies that we have 
seen here in Kentucky is of course the Recovery Kentucky model. 
In 2004, the late Don Ball took the helm as the Chair of 
Kentucky Housing Corporation under Governor Fletcher's 
administration. Mr. Ball brought with him a personal 
commitment, a strong will, and a solid plan to establish a 
network of recovery centers across Kentucky. Because of Mr. 
Ball's vision, Kentucky now has 14 recovery centers that have 
helped thousands of our residents start a new life of recovery 
from addictive substances. These 14 centers are in addition to 
the other four centers, two in Louisville--The Healing Place--
and then the two Hope Centers here in Lexington. Today, these 
18 recovery centers serve and help over 2,000 men and women 
daily.
    The Recovery Kentucky Centers follow a peer-to-peer 
education and self-help model to provide sustained addiction 
recovery services. Peer mentors model behaviors and spiritual 
principles that focus on providing life skills to residents by 
following the spiritual principles of the 12 steps of 
Alcoholics Anonymous. Information from U.K.'s Center for Drug 
and Alcohol Research points to the significant successes that 
we have seen here in Kentucky, and I mention those in my 
written testimony.
    Additionally, the program has saved taxpayer dollars 
through avoided cost to society or costs that would have been 
expected based on the rates of drug and alcohol use, and that 
can't be understated. For every dollar we spend on these 
recovery centers, we save $2.60.
    Recovery Kentucky would not have been possible without 
housing program dollars appropriated by Congress and 
administered by the Kentucky Housing Corporation (KHC). The 
recovery centers rely on a complex array of Federal funds for 
construction and operation, including the following: The bricks 
and mortar are built with the low-income tax credits and also 
HOME dollars and some affordable housing trust fund dollars 
that we have here in the State of Kentucky. There is also CDBG 
funds that are used, as well as Section 8 Housing Choice 
Vouchers for rent subsidies for the residents at these 
facilities, and also, as has been mentioned, food stamps.
    It has become increasingly difficult to develop more of 
these recovery centers for two primary reasons. The first is of 
course less funding in Federal housing programs, but the second 
I really want to draw attention to, and that is red tape that 
surrounds certain Federal programs. For example, KHC has 
experienced significant challenges recruiting landlords to 
participate in the Section 8 Housing Choice Voucher tenant-
based program, with many citing programmatic red tape as an 
obstacle. Additionally, Federal statutes restrict the amount of 
tenant-based rental assistance that may be used for a specific 
property to 20 percent of a public housing authority's housing 
choice vouchers. One useful reform would be to raise that 20 
percent cap and allow public housing authorities like KHC to 
project-base more housing choice vouchers to meet our specific 
needs here in the Commonwealth.
    I sit on the board of directors of the National Council of 
State Housing Agencies, so I have the opportunity to speak with 
many of my colleagues across the country, including my 
distinguished colleague in Wisconsin--Mr. Winston does great 
work in Wisconsin--and I can tell you that, nationally, this 
would be accepted on a bipartisan basis. It is an option that 
allows housing choice vouchers to be project-based, but each 
State doesn't necessarily have to do that. So it would be a 
significant reform to potentially look at building more 
recovery-type models, regardless of treatment methods.
    I will conclude my remarks with these key statements: 
Recovery Kentucky is a housing-based model that has produced 
remarkable outcomes and has proven to be highly cost-effective; 
housing is a key component of successful recovery programs and 
essential for long-term recovery; and greater flexibility with 
Federal housing program regulations will provide States with 
more control of the resources needed to achieve the goals of 
the President's Commission on Combating Drug Addiction and the 
Opioid Crisis.
    Thank you for taking on this difficult but important work 
to help ensure access to effective recovery programs. Kentucky 
Housing Corporation led the way more than a decade ago, and we 
stand ready as a dedicated partner in the continuing effort. 
Thank you.
    [The prepared statement of Mr. King can be found on page 49 
of the Appendix.]
    Mr. Duffy. Thank you, Mr. King.
    The Chair now recognizes Ms. Minton for 5 minutes.

                    STATEMENT OF LISA MINTON

    Ms. Minton. Thank you, Chairman Duffy, Congressman Barr, 
and Congressman Guthrie. I am the Executive Director of 
Chrysalis House, and I am very pleased to be with you today. 
And I would be remiss if I did not introduce our wonderful 
board president, Lindy Karns, who is also here today. That just 
shows what a wonderful program Chrysalis House is. Our board, 
our staff, our community partners, and everybody that we work 
with, we come together to do the best that we can for the women 
and children that we serve.
    And we have been saving lives for over 40 years. We are 
Kentucky's oldest and largest licensed substance abuse 
treatment program for women. And the chrysalis is the protected 
stage just before the beautiful butterfly emerges, and that is 
what we want for the 200 women and babies that we serve every 
year.
    As reported in the Herald Leader this past weekend, the CDC 
report recently stated that Kentucky had one of the highest 
rates in the Nation of pregnant women using opioids, and that 
is another example of the State's struggle with abuse of pain-
killing drugs.
    At Chrysalis House, we prioritize pregnant and parenting 
women, and we are one of the few programs in the Nation that 
allow women to bring their babies with them into treatment. We 
believe the opportunity for our clients to be with their babies 
and young children is a powerful incentive for recovery.
    A brief snapshot of the women that we are currently 
serving: Their average age is 26 to 30, 41 percent are 
pregnant, 61 percent report their primary substance abuse is 
heroin or other opioid, 85 percent have had one or more prior 
treatment episodes, 98 percent are unemployed, and 60 percent 
meet the homeless criteria for transitional housing. This 
population needs additional recovery supports. Housing and 
employment are imperative to long-term sobriety.
    Chrysalis House received our first HUD Transitional Housing 
Grant in 1990, and we've received HUD permanent housing funding 
for over 20 years. In 2016, our $200,000 grant was cut by our 
continuum of care due to the change in HUD's vision for moving 
forward and serving the chronically homeless and housing first, 
which we agree with, but we do think that there is room for 
transitional housing because our women and their children, 
after they go through 3-to-6 months of treatment at Chrysalis 
House, need sober, stable living in order to achieve long-term 
sobriety.
    The next year, we lost our $93,000 scattered-site apartment 
funding and our $60,000 permanent-housing bonus apartments, so 
we have gone from $360,000 a year in HUD funding to zero. And 
so this shift in HUD's view, I can see that, but we also think 
that there is room for transitional housing. And so we look 
forward to working with you all on the CAREER Act and the 
THRIVE Act and any other ways to help the women and children 
that we serve at Chrysalis House.
    So I thank you for allowing me to speak today, and I am 
glad to take any questions.
    [The prepared statement of Ms. Minton can be found on page 
52 of the Appendix.]
    Mr. Duffy. Thank you, Ms. Minton.
    Mr. Robinson, you are recognized for 5 minutes.

                    STATEMENT OF TIM ROBINSON

    Mr. Robinson. Good morning, Chairman Duffy, Congressman 
Guthrie, Congressman Barr. My name is Tim Robinson. I am the 
CEO of Addiction Recovery Care. More people died from overdoses 
than car accidents last year, making addiction a national 
public health crisis that is taking too many lives and 
threatening our economic security, as employers struggle to 
find and retain employees. Last year, our Kentucky Chamber of 
Commerce CEO wrote in an op-editorial and he called addiction 
the number one economic concern in our State.
    Everyone is looking for a silver bullet to address the 
addiction crisis. The reality is there isn't a silver bullet. 
Addiction recovery requires a whole-person approach, which 
starts with intervening with treatment, investing in someone's 
economic future by providing access to transitional housing, 
vocational rehabilitation, workforce development, and inspiring 
them from day one that there is hope to go from their crisis to 
a career.
    I am thankful for the opportunity to speak to you because 
recovery is personal to me. I started drinking in my first year 
of law school at the University of Kentucky to cope with my mom 
passing away during finals. For the next 8 years, I almost 
drank myself to death. Eleven years ago while I was a 
prosecuting attorney in Lawrence County, Kentucky, a court 
bailiff, who was a recovering alcoholic and pastor, led me to a 
spiritual awakening at my desk. He became my sponsor and my 
pastor. And addiction recovery is personal to me because I am a 
survivor.
    Two years later in 2008, I resigned as prosecutor and in 
2010 opened a residential center for women in rural eastern 
Kentucky. Today, we have 350 residential clients and 500 
outpatient clients and centers across 12 counties in Kentucky. 
Our experience has taught us that addiction is a disease that 
devastates all aspects of a person's life, impacting someone's 
mind, their body, their spirit, and their purpose. And we have 
been determined to treat addiction holistically, medically, 
clinically, spiritually, and vocationally.
    Our centers are led by an addictionologist and are 
nationally accredited. We have developed a spirituality program 
that inspires hope and offers redemption. Much like hospice 
centers, we employ chaplains who work alongside our clinical 
staff, and though we consider the spiritual aspect of our 
centers to be the heart of our success, our spirituality 
program does not replace medical and evidence-based clinical 
practices. It is in addition to them and makes our care more 
comprehensive.
    Treating the whole person has led to great success. One of 
our payers recently reported to us that our centers reduced 
their members' healthcare costs by 33 percent during the 6 
months after they completed our program.
    We created an internship program with the promise that 
everyone who completes the program would be guaranteed a job. 
Today, 190 of our 380 employees are in recovery, and of those 
380 employees, 130 are graduates of our programs.
    We are a State-certified peer-support training program. A 
peer-support specialist is a Medicaid-billable professional who 
has 1 year of sobriety and completes a certification program.
    We partnered with a workforce board, Eastern Kentucky CEP, 
and with Sullivan University to expand our internship into a 6-
month career academy. Our graduates earn State certification 
and college credit. In just 1 year, a person in addiction can 
go from an IV heroin user to supporting themselves, literally 
going from their crisis to a career.
    To date, 41 of our 46--or 85 percent--of our academy 
graduates are clean and sober, working full-time, paying taxes, 
and transitioning off public assistance. Some of the graduates 
have been promoted to management, and others are continuing 
their education for careers such as counseling. Prior to the 
academy, 40 percent of our clients chose to continue treatment 
beyond detox in residential care. After giving folks an 
opportunity to go from crisis to career, 70 percent of our 
clients now choose to continue treatment, doubling treatment 
motivation.
    Vocational education that leads to a meaningful career that 
provides the dignity of work gives those reentering the 
workforce the confidence necessary to establish career goals 
and plan for their future. Because of this success, we are 
adding other programs such as an auto mechanics academy.
    Kentucky may be leading the Nation when it comes to our 
drug crisis, but Kentucky is also leading the way in access to 
treatment because of the national leader on this issue, 
Congressman Hal Rogers, who has been working on this issue for 
more than a decade, and the efforts of our Governor Matt Bevin, 
who is making Kentucky a second-chance State.
    But the two biggest challenges preventing us from taking 
more people from crisis to career is a lack of funding for 
workforce development and transitional housing. That is why I 
am so excited about Congressman Andy Barr's bill, the THRIVE 
Act, and our Senate Majority Leader Mitch McConnell's CAREER 
Act, and that Congressman Guthrie has convened joint committee 
hearings on the issue of helping people in addiction who are in 
recovery get the workforce development they need. And these two 
historic pieces of legislation have the potential to transform 
the national effort to combat the drug epidemic.
    In closing, the hope of America is not merely surviving. 
The hope of America is an opportunity to flourish. That is what 
our brothers and sisters in addiction need. They need an 
opportunity, an opportunity for treatment, transitional 
housing, and workforce development that leads to a meaningful 
career path. And when the opportunity is given, I have seen not 
just survive but thrive. Our current human capital and labor 
shortage can be solved at the same time we combat the drug 
epidemic as we take those struggling with addiction from their 
crisis to a career.
    [The prepared statement of Mr. Robinson can be found on 
page 55 of the Appendix.]
    Mr. Duffy. Thank you, Mr. Robinson.
    Mr. Thomas, you are recognized for 5 minutes.

                    STATEMENT OF JEROD THOMAS

    Mr. Thomas. First, let me thank you for including me today. 
It really is an honor. My name is Jerod Thomas. I am the 
President and CEO of the Shepherd's House. The Shepherd's House 
is a nonprofit, long-term transitional living home for men 18 
years and older that have a drug or alcohol addiction. We have 
been providing this treatment for 29 years, since 1989. We are 
one of the few transitional-living houses that offer recovery 
care for our clients 24/7. We offer a lot more than just a roof 
over your head.
    Our long-term residential recovery program is very similar 
to the model of the THRIVE Act. We are a therapeutic community, 
and our primary focus is on helping these men acquire daily 
living skills. In our day, we offer individual counseling, 
group counseling, conflict resolution, anger management 
classes, parenting classes, education programs, money 
management classes, and art therapy. We also feature a one-of-
a-kind jobs program in which 90 percent of our clients get a 
job within 3 weeks of entering our transitional-living house.
    Employment is mandatory at the Shepherd's House. To prepare 
our clients for employment, we provide professional assistance 
with resume building, interview skills training, personal 
presentation, employment goalsetting, and teambuilding. We 
partner with DVA Kitchen, Employment Solutions, Vocational 
Rehab of Lexington, and OWL.
    The Shepherd's House has never received any Federal grant 
money for any of our programs, but we have received grant money 
from Federal Home Loan Bank and Kentucky Housing Corporation in 
the form of brick-and-mortar grants, which require income and 
special-needs verifications, which are similar to the Section 8 
rental assistance voucher program, so we are very familiar with 
the process.
    Under our transitional housing model, clients pay a portion 
of their income as rent. That does not cover my utilities, my 
food, and my professional therapies cost. The bulk of our 
expenses are funded by the donations the Shepherd's House 
receives, so basically what I am telling you all today is the 
good people of Lexington, Kentucky, keep my doors open. Because 
we have had so much success, the donations have increased. I 
believe the THRIVE Act will have similar results. The financial 
support the THRIVE Act could provide would ensure our continued 
success, as well as allowing us to serve more people.
    And I really wanted you guys to hear me today, but I 
thought it was more important that you feel me today, so I 
brought Donna Schuler with me today. Donna, could you stand up? 
Thank you, Donna.
    Donna is a great friend of mine and a wonderful mother. Her 
28-year-old son Luke Andrew Schuler died of a drug overdose on 
December 9, 2016. Luke was on my waiting list at the Shepherd's 
House. He was 2 weeks away from his bed date. We live with that 
every day, knowing a life was lost because we didn't have room. 
There are perhaps countless others who are waiting that we 
don't know about. Luke's mother Donna, in spite of her 
unimaginable grief, rose to the challenge and has worked 
tirelessly to get contributions to grow the Shepherd's House so 
that no other parents have to bury their son because a bed 
wasn't available.
    The Shepherd's House currently has a 6-month waiting list. 
The funding the THRIVE model facilities will receive would 
allow us to expand our current bed capacity and offer more 
services to more individuals. The housing cost burden will be 
significantly reduced, and these precious funds will be freed 
up to provide more services and more beds.
    We currently follow all the Section 8 housing rules but 
with more restrictions and services for the client. Like 
Section 8, we require our clients to stay drug-, alcohol-, and 
crime-free, but unlike Section 8, we provide the programs and 
support to help them do so. We provide a 24-hour-a-day, 7-day-
a-week therapeutic community that gives you access to the daily 
living skills necessary to stay sober and participate in the 
game of life. Our focus is on the whole person. Our aim is to 
meet all the client's needs while they are in our safe and 
drug-free environment. The THRIVE-based model includes programs 
like the Shepherd's House that have proven results of long-term 
sobriety. Most of our clients are either income-eligible for 
Section 8 or qualify as homeless, so the reallocation of these 
vouchers still meets the letter and spirit of Section 8.
    In preparing to give testimony today, I have looked at the 
support offered by Section 8 vouchers, and I am excited that we 
may be able to use those funds for people who want to live 
sober, but the Section 8 voucher in and of itself is not the 
end game. There are more pieces to this puzzle of life than the 
housing issue. The THRIVE Act takes the intent of Section 8 to 
provide safe and stable housing and partners that with the very 
best treatment model we know of today. The union of these three 
things--a treatment model with daily living skills 
incorporated, job placement and education to secure a financial 
future, and stable and adequate housing--that is the end game. 
Through those relationships and funds, the THRIVE Act will give 
drug addicts and alcoholics tools for change and solutions for 
life.
    Let me leave you with the sobering facts we live with here 
in Kentucky. By the end of the day today, five more Kentuckians 
will have died of a drug overdose. That means five more sets of 
parents will bury kids, and five more kids will lose their 
parents. Kentucky is always in the top five in overdose death. 
At the end of our day today, let's use the THRIVE Act and the 
CAREER pilot program in Kentucky to save those five lives. 
Thank you.
    [The prepared statement of Mr. Thomas can be found on page 
59 of the Appendix.]
    Mr. Duffy. Thank you, Mr. Thomas. And, Donna, thank you for 
being here today, and we are sorry for the loss of your son 
Luke. Thank you.
    Dr. Walsh, you are recognized for 5 minutes.

                STATEMENT OF DR. SHARON L. WALSH

    Dr. Walsh. Thank you. Chairman Duffy and distinguished 
Members of the committee, thank you for the opportunity to 
appear today to discuss the role of Federal housing and 
community-development programs to support opioid and substance 
use disorder treatment and recovery. I want to thank 
Congressman Andy Barr from Kentucky's Sixth congressional 
District for inviting the committee to Lexington--I wish that 
the weather was better for you--to discuss the Nation's opioid 
crisis and how Kentucky leaders are responding.
    My name is Sharon Walsh, and I am the Director of the 
Center on Drug and Alcohol Research at the University of 
Kentucky, and for the past 25 years, I have been engaged in 
conducting research on opioid misuse, dependence, its medical 
complications, best practices, and the development of novel 
treatments for opioid use disorder. I have been fortunate to 
have had funding throughout my career from the National 
Institute on Drug Abuse, along with other sources, including 
SAMHSA and the FDA (U.S. Food and Drug Administration). I am 
here today representing the University of Kentucky.
    The University of Kentucky has launched many initiatives to 
increase access to care and accelerate the discovery of novel 
approaches to address the opioid crisis in the Commonwealth and 
the Nation. I will highlight only a few with my limited time 
today.
    The University of Kentucky Hospital emergency rooms see 
approximately 1,000 non-fatal opioid overdoses in a given year 
with approximately 50-plus cases of fatal overdoses. This does 
not include those patients who present with significant and 
life-threatening medical complications from injecting drug use 
behavior who present virtually every day, nor does it include 
all of those individuals who never make it to the emergency 
department. Historically, emergency departments in our region 
would treat the presenting problem and return the patient to 
the street without attempting referral or linking patients to 
care for their opioid addiction.
    With the support from the CURES funds, through SAMHSA and 
the State of Kentucky and the Cabinet for Health and Family 
Services, a new service has been developed to address this 
critical gap in care. The First Bridge Clinic is a new 
initiative that allows our emergency departments to directly 
refer individuals at high risk for fatal overdose and link them 
to care. Patients can quickly begin receiving evidence-based 
care, including medication-assisted treatment and start on the 
path to remission and recovery. However, these patients often 
have many other psychosocial problems that are barriers to 
treatment success and retention in treatment. For example, a 
criminal record is a barrier to employment, and unemployment is 
a barrier to housing. Linking all patients to the requisite 
supportive services is essential for long-term recovery, 
especially housing when needed.
    Another U.K. program that is having a profound impact that 
Congressman Barr mentioned earlier is PATHWAYS, a program 
designed specifically for the care of pregnant women suffering 
from opioid use disorder. PATHWAYS opened in 2014 and has 
treated more than 200 women and their newborns. Women are able 
to receive evidence-based care, medication-assisted treatment, 
and good prenatal care. The large majority of women achieve 
abstinence and deliver their babies with no illicit opioids in 
their systems. And the incidence of babies suffering from 
neonatal abstinence withdrawal has been reduced by more than 
half. U.K. just opened a specialized NACU unit that is an 
eight-bed unit that is specifically for the care of babies born 
with drug exposure. Our postpartum program for the support of 
new mothers, Beyond Birth, is also expanding with the help of 
Medicaid assistance.
    Young mothers with new babies may be the most vulnerable of 
all the patients that we see. This is a high-risk group that 
may require housing services, housing that allows infants and 
other children in order to promote retention in care and 
sustained remission.
    In Kentucky, there was little to no opioid abuse before the 
current prescription opioid epidemic began. There was no 
heroine historically. Most existing treatment facilities and 
housing services were not designed to address the unique issues 
associated with opioid use disorder that set it apart from 
other substance use disorders. This is a very unforgiving 
disorder. A single lapse or relapse can lead to the immediate 
death of a person who is striving to sustain their recovery. A 
single mistake ends a life.
    Federal agencies, including the FDA, SAMHSA, and NIH, all 
agree that the most effective approach to the treatment of 
opioid use disorder is pharmacotherapy, also known as 
medication-assisted treatment, including buprenorphine, 
methadone, and naltrexone, and all are calling for its expanded 
use. These medications effectively reduce drug use, improve 
health, reduce the transmission of infectious disease, and, 
most importantly, protect individuals from fatal overdose.
    It is commonly recommended that part of the path of 
recovery is to change the people, places, and things that are 
associated with one's past drug-using lifestyle. This may 
involve moving into residential care or recovery housing. 
Unfortunately, many of these facilities prohibit or exclude 
patients who are receiving all or specific FDA-approved 
medications under the supervision of a trained physician. 
Providing healthy- and safe-living housing environments for all 
patients seeking recovery is essential, and programs receiving 
government support should not only allow but should also 
promote the use of all evidence-based practices in treatment 
and housing programs.
    The University of Kentucky looks forward to working with 
Congress and other leaders to leverage the expertise and 
resources of the Federal Government in a strategic and 
coordinated manner. As a historic land-grant and flagship 
research university, the University of Kentucky was founded for 
the people of Kentucky 150 years ago. That is why we are here, 
to keep a deep and abiding promise of better tomorrows for our 
community, our region, and the Commonwealth.
    I sincerely appreciate the opportunity to present testimony 
before the subcommittee, and I am happy to address any 
questions. Thank you.
    [The prepared statement of Dr. Walsh can be found on page 
64 of the Appendix.]
    Mr. Duffy. Thank you, Dr. Walsh. I want to thank our panel 
for their insights and their testimony. The Chair now 
recognizes himself for roughly 5 minutes for questioning.
    First, I neglected to mention how grateful I am for the 
warm welcome that you have given me in Kentucky, especially 
after Wisconsin ended your undefeated season in 2015 in the 
Final Four. Mr. Guthrie was at that game.
    With that said, listen, this is a heart-ripping 
conversation. I was a prosecutor for 10 years, and over 10 
years ago in my small county we saw more deaths from opioids 
than anything else in our community. And there was really no 
national conversation or even a Statewide conversation at that 
time, and so we put together a community taskforce. That is 
what we do, right? We try to go, how do we help our other 
community members when we see a crisis that burns? We don't 
always look up the food chain; we look to ourselves to try to 
address the problem.
    And I was the prosecutor, so I had the D.A., I had the 
judge, we had the school, law enforcement, the pharmacist, 
everyone was getting involved, and one of the problems that we 
had was--if we have any doctors in the room, I am sorry--but 
the doctors were the ones where, again, they were the flow of 
the OxyContin, which was our issue of opioids. They were the 
flow-out, and we couldn't get their participation early on to 
even deal with random pill counts, to do random testing. And 
when someone comes in on a Friday afternoon and says that the 
dog ate their Oxy and they want another 30-day supply and they 
were getting it, this was insane stuff.
    And so no wonder we have a crisis on our hands that was 
made not by the drug dealers, but whether we want to talk about 
pharmaceuticals or whether we want to talk about doctors and 
hospitals, and it has absolutely ravaged all of our communities 
across America.
    In Wausau, Wisconsin, I did a roundtable with many of my 
sheriffs and our attorney general, and what you see is how it 
is even addressing our kids, parents that are doing heroin in 
the car outside the drug house and the kids are in the back 
seat in the carseats as the parents are strung out in the front 
or what is happening inside homes of cereal being dumped on the 
floor for kids to eat for a couple days as the parents are on a 
drug binge.
    And some of the sheriffs were talking about how some of 
their deputies have started to drink more to cope with what 
they are seeing in our community, so you have seen drug use 
that translates even to some of our law enforcement deputies 
starting to consume more alcohol to deal with the pain of what 
they are seeing in their community with kids and with adults. 
And there is no silver-bullet answer here I don't think, but 
trying to find bright spots that can help our communities deal 
with these issues is incredibly important.
    Just to the panel, I don't know if you guys have this 
scenario. Are you seeing more out-of-home placements for 
children in your community because of this epidemic? Is that a 
fair assessment, Governor?
    Mr. Fletcher. Yes, we are involved with the group in 
Georgia, Rome, Georgia, and up to 70 percent of foster home 
placements are related to substance use disorder. And a lot of 
the data across the country shows increase in foster care, and 
we don't have near the adequate number of foster parents or 
volunteers to accommodate that, so we are facing--one of the 
consequences of opioid use disorder is going to be a tremendous 
impact on the children going forward, and the NAS that Dr. 
Walsh mentioned as well.
    Mr. Duffy. And just for my smaller counties, we don't come 
from a wealthy area in America or in Wisconsin. We have some 
pretty poor counties. The counties don't have the resources to 
actually fund the out-of-home placements, which you want money 
to address addiction, but then you are spending money to 
address the consequences of it with the out-of-home placement 
for children, which a lot of our counties are struggling to go, 
how do we deal with this? It is a financial problem; is that 
fair to say, Governor?
    Mr. Fletcher. Yes. One of the things that I think as we put 
this in the context of other works being done with NIH and the 
healing communities and NIDA is--and we are starting a project 
in Rome, Georgia, where we are looking at a group that handles 
foster care in addressing women. It is going to have to be a 
community-wide program of having a community that addresses 
these issues comprehensively, similar to what you started off 
with, your effort with the taskforce on opioids in your 
community.
    But I do think the healing community and having part of 
MAT, residential continuum of care that even addresses to 
reduce the incidence or the need of foster care by addressing 
these generally single moms early on or maybe both parents that 
are under substance use, but getting them into recovery so that 
you can reunify that family, which has historically been the 
best impact on a child's well-being is reunification.
    Mr. Duffy. Yes. Mr. King?
    Mr. King. And what we are seeing in housing, we are really 
focused on two populations: Seniors and children. And you are 
seeing this spillover effect among youth and youth who are 
aging out of foster care. We have dedicated our resources to 
try to alleviate some of the issues with seniors, grandparents 
housing, having to house or find the resources to house their 
grandchildren.
    Mr. Duffy. Yes.
    Mr. King. I talk often about a holistic approach to 
housing. When you are looking at the spillover of an increasing 
population of youth and youth aging out of foster care, another 
housing approach that we have introduced in Kentucky is the 
Scholar House model, which helps single parents go to college 
or technical school and receive a degree and become a 
participating member of society. We are now over the next year 
going to be introducing a Scholar House model for youth who 
have aged out of foster care. But we are definitely seeing an 
uptick in housing resources going specifically for seniors who 
are caring for their grandchildren.
    Mr. Duffy. Anyone else want to comment?
    Ms. Minton. Well, I want to say that is one of the great 
things about Chrysalis House is that we allow the babies and 
children under 2 to live with their mothers while in treatment 
and older children come and spend the night on the weekends. 
Then the whole family reunites when they move into transitional 
housing. And so we can help them all along the way. And here in 
Kentucky the DCBS has a specialized team called START, which 
stands for sobriety, treatment, and recovery teams. And 
Chrysalis House works closely with the START team and with the 
court system because a lot of times the judges would take the 
children away, put them in out-of-home placement. But if the 
woman is at Chrysalis House and is doing well and working on 
her treatment plan, then they will allow the children to stay 
with the mother, and so that does save our citizens a lot of 
tax money.
    Mr. Duffy. I don't know if anyone knows the answer to this 
question. In regard to how we treat pain in America and if you 
have been to the doctor--my wife and I, we have eight kids, so 
at least every 2 years I have been to the doctor dealing with 
pain in childbirth, not my pain but my wife's pain, and the 
little smiley faces to the grimacing frown of the little face 
in the doctor's office. And anyone have any comment about the 
reimbursement method as it is tied to pain treatment with 
people in hospitals? And if your assessment of pain is low and 
doctors get a benefit for that, don't we start pushing drugs on 
people when we should say, well, we don't want to actually push 
some of these high-octane, highly addictive drugs on folks to 
necessarily manage pain. Maybe a little bit of pain might be 
beneficial instead of the possibility of getting hooked on a 
very powerful drug. Am I off base, Dr. Walsh? Am I crazy up 
here?
    Dr. Walsh. You are not crazy. So I think the contingencies 
are a little bit different, though, than what you have 
described, so the contingencies aren't really about 
reimbursement. Where the requirement came for physicians to 
treat pain came out of JCAHO, the Joint Commission on 
Accreditation of Hospitals, when they adopted the policy that 
pain was going to be a vital sign--
    Mr. Duffy. Right.
    Dr. Walsh. And that initiative was I think unknowingly 
pushed by groups that appeared to be legitimate scientific and 
medical societies, but they were actually funded by the 
pharmaceutical industry.
    Mr. Duffy. That is right.
    Dr. Walsh. So they were able to persuade the accreditation, 
which every hospital needs to maintain in order to operate, 
that pain was going to need to be treated well. And then the 
other thing that drives it are patient satisfaction scores 
because that is another thing that hospitals pay attention to 
and that doctors are held accountable for.
    Mr. Duffy. Have we changed that model now?
    Dr. Walsh. So JCAHO certainly is reevaluating things, and 
at the national level, there are a lot of physician 
organizations that are really trying to do a better job with 
coming up with guidelines. The CDC, I am certain, released new 
pain treatment guidelines, but they are guidelines so they are 
not mandatory. So we see some of the same bad practices 
continuing both in hospital settings, outpatient settings, 
dentist, mid-level providers. So while there is a lot of 
popular news about this, you cannot possibly not know that this 
is the biggest crisis that we are facing.
    We still see a lot of bad prescribing practices. And just 
as an example, in our State, the State Government changed the 
law so that you could only have a 3-day prescription for a 
Schedule II agent, and so what a responsible doctor would do 
would give a 3-day prescription. What some who don't want to 
get called on the weekends do instead, they will give a 3-day 
prescription for 4 times as much as they would have prescribed 
for a 3-day prescription so that there is more available so 
that they are not getting patients calling up and saying that 
they are in pain.
    So I think that is really important when we are thinking 
also about how we do both regulations around this, guidelines, 
what is it that we are incentivizing because sometimes we are 
missing the mark a little bit and--
    Mr. Duffy. And we want to manage pain. We don't want people 
not to be able to get medicine to manage their pain, but also 
we don't want to push that pendulum too far over, which I think 
you have mentioned, Dr. Walsh, that we have and it has to be 
reevaluated. And frankly, we are not done with that process. It 
is a little bit shocking based on the crisis that we are seeing 
across America.
    I have to end in one moment, but you all agree that housing 
is a key component to recovery. We are all agreeing on that. 
Good. We are on the same page. And just I thought that, Mr. 
Boggs, you made an interesting point. When we are talking 
about, you are dealing with those that have been convicted of 
crimes who have served sentences, I don't know if you have the 
same problem in Kentucky, but in Wisconsin, we don't have 
enough workers to fill our jobs, and if we can move people, 
whether it is from incarceration with skill sets into jobs or 
from those who have drug abuse issues to skills sets to 
meaningful jobs that give purpose in life, not only does it 
help the individual, their family, but it helps our broader 
economy because they are filling places in our workforce that 
aren't being filled right now.
    You talk about a--this is a holistic issue that we face as 
a community and as a country. Mr. Thomas?
    Mr. Thomas. That is a perfect example. What better place to 
get your employees than living at our facility where they are 
being drug-tested 3 days a week, and if you are positive, we 
will not send a guy that is under the influence of drugs or 
alcohol to work. We will simply call the employer and say he is 
not going to be available today, but we have a guy that we can 
send to you and you can start training today.
    So we are actually doing that for you, so we take the cost 
of the drug test and we monitor, so if you are in our 
facilities or any of our facilities getting drug tests, you 
have a safe and sober employee. That also saves money on the 
other end almost like an employee assistance program would. 
There are not as many workplace accidents when nobody is drunk 
or high.
    Mr. Duffy. That makes sense. I am going to pass it over in 
a second to Mr. Barr, but again, we are talking about 10,000 
vouchers out of 2.1, 2.2 million as a demonstration project to 
see if this works. Again, this is how the government should 
work to say let's take a little sliver and see if we can have a 
real impact, and if it works, we can expand it, but it is only 
10,000 vouchers, again, out of 2.2 million. I think that point 
needs to be made also.
    The fact that we are trying to address an opioid crisis is 
different than--we have all dealt with alcohol and alcohol 
abuse in many of our families. This is a new animal we are 
trying to get our hands around and how we address addiction. I 
know we are not talking about meth today, but that is a whole 
other problem as well, and it is going to be all of us 
partnering together. And I want to thank you all for the work 
that you do to make Kentucky a healthier place, to help 
families, individuals who are going through this incredibly 
difficult time, helping them get to a place of health. And to 
hear stories like Donna's, to make sure we don't have those 
five people today, Mr. Thomas, go through what she had to go 
through in her family, it is heartbreaking, and I appreciate 
her strength and willingness to help other families and have 
her and her son's story be told.
    So with that, my time is expired, and I recognize the 
gentleman from Kentucky, Mr. Barr, for as much time as he may 
consume.
    Mr. Barr. Thank you, Mr. Chairman. And again, thank you, 
Mr. Chairman, for coming to Kentucky and listening to our 
constituents about models of hope, about models of recovery. 
Wisconsin has a crisis, Kentucky has a crisis, the whole 
country is dealing with an opioid addiction crisis, an overdose 
crisis. And the fact that you have spent the time and the 
willingness to come to Kentucky and hear from people on the 
frontlines who are offering solutions and taking our testimony 
is something that I really appreciate.
    Mr. Chairman, since you did mention the 2015 NCAA 
tournament, I just respectfully remind the Chairman about 2014 
and the 30-foot shot with 2 seconds left by Aaron Harrison that 
knocked out your Badgers, so just for the record. I can say 
that to the Chairman because--
    Mr. Duffy. Duly noted.
    Mr. Barr. --he is a good friend of mine.
    On a more serious note, I do just want to make note of the 
fact that it is altogether appropriate that this field hearing 
is taking place in the United States District Courthouse. In my 
conversations with members of the Federal judiciary, the 
criminal docket here in the Eastern District is 
disproportionately inundated with criminal cases that are 
connected in some way or another to the opioid addiction 
crisis.
    Well, all of you have made very good points today, but let 
me start my questions with Governor Fletcher. Thank you for 
your testimony. Thank you for your leadership. Thank you for 
your innovation with Mr. Ball a decade ago and for your 
continued work in trying to take the Recovery Kentucky model 
nationwide. It is a unique model. We know it works. My question 
to you is besides the THRIVE Act--and we thank you for your 
words of support for more Section 8 vouchers for addiction 
recovery, but you mention the CDBG program, the Community 
Development Block Grant, and I fully agree with you that 
recovery is community development because of the connection to 
the workforce development issue.
    What statutory changes does the Congress need to make, 
continue to make besides the THRIVE Act to provide more CDBG 
funds or other resources to take the Recovery Kentucky model 
nationwide?
    Mr. Fletcher. That is a tough question. Congressman, let me 
say this. As I have thought about the CDBG grants, 15 percent 
of those are available for service, and we are using those, but 
they are very competitive because most of the communities out 
around the State, knowing that these funds are controlled 
primarily by the Governor, make it very difficult to direct 
some of these moneys to a recovery effort.
    I do think, maybe similar to what you are doing in the 
THRIVE Act under the CDBG funding, is looking at considering 
setting aside, taking some of that $6 billion that is going and 
set aside for community development similar to the CAREER Act 
but making sure there is a funding stream available that is 
sustainable, that helps us address directly that particular 
need. That could be tied with the quality measures that you 
have already done in the THRIVE Act. It could be tied with 
making sure that they have job training, that they are involved 
with the local economic development, all part of this healing 
community effort.
    What particular piece of legislation? I think the CAREER 
Act might be a place, but looking also at the--I guess the 
appropriations for CDBG but the authorization for CDBG and 
where those come from and looking at the language in that 
authorization bill to see if we couldn't specify, as you have 
done in the THRIVE Act, some moneys for that particular 
development effort.
    Mr. Barr. Thank you. That is helpful.
    Mr. Boggs, I appreciate all the good work that you all do 
at OWL to take people from a period of incarceration into 
sustainable employment. Do you have any specific suggestions 
for how Federal housing programs can work more closely with 
nonprofits like yours to help residents find jobs and rise 
above poverty? And the question is animated by my own personal 
experience traveling the central Kentucky area and talking to 
employers.
    And, Mr. Thomas, you made a great point about providing 
sober workers. It is ubiquitous. Every single employer in 
central Kentucky, whether it is a farm, whether it is a 
manufacturing firm, whether it is a healthcare-related 
business, whatever the business is, the hiring manager, the 
H.R. manager, the plant manager, they all tell me the same 
thing, which is we have job openings we can't fill because 
people can't pass a drug test. How can Federal programs partner 
more with organizations like you to provide that labor supply?
    Mr. Boggs. Yes. As I mentioned several times, the 
correlation between housing and employment is so critical 
because of--simply for the fact if people do not have a place 
to stay, they do not feel like getting up and going to work in 
the morning. They are not capable of getting up to work in the 
morning. So if they have stable housing, then that provides 
them a place, a residence, a place of safety that enables them 
to go to a place like OWL and receive the necessary job 
training.
    And you are correct; every individual that comes through 
our doors that wants to work, we can find employment for them. 
The big issue is so many times they come to work and then the 
next day they don't show up. That is because they don't have 
transportation. That is another big barrier that goes in this 
whole piece that none of us have mentioned today. So getting 
back and forth to work and having that stable place to live 
brings that full circle together.
    And when we do have partnerships like I stressed earlier, 
that makes it so meaningful to connect it all together, and the 
collaboration is going to be the ultimate key for all this 
among agencies and maximum utilization of dollars.
    Mr. Barr. Mr. King, can you expand on how the current cap 
on project-based vouchers--you mentioned the 20-percent cap--
has limited specifically here in Kentucky. How has that limited 
the Kentucky Housing Corporation's ability to invest in housing 
programs that serve those who are recovering from opioid 
addiction?
    Mr. King. Yes, and when I--thank you. When I mentioned that 
earlier, there are PHAs throughout the Nation who have done 
some demonstration projects where they can exceed that 20-
percent cap. However, Kentucky Housing Corporation is not one 
of those. What you have seen in Kentucky is 14 recovery centers 
that do great work, but they all use housing choice vouchers 
that are project-based to those centers, so you have those 14 
recovery centers. You also have, I believe, 13 Scholar Houses, 
which I just mentioned a little bit earlier where, again, those 
vouchers are attached to those projects.
    So these have been very innovative approaches to address a 
particular issue like the opioid epidemic and like education 
and workforce training. However, because of those efforts, we 
have hit that cap. And so allowing us more flexibility, maybe 
increasing that 20-percent cap to potentially 40 percent or 
greater, to me it presents an option for States to utilize 
those resources. I think we have to take--as a country, I think 
we have to take a holistic approach to housing, and we can't 
just look at providing a roof over somebody's head. We have to 
address the things that lead to chronic homelessness like the 
opioid addiction epidemic and like educational opportunities 
for parents. So by raising that cap, we are allowed to target 
individuals into particular housing models.
    The purpose of the housing choice voucher was a good 
purpose, to give people choice in where they want to live. That 
is a good and noble goal. The problem is that you have a lot of 
landlords who are not willing to take tenants. So someone might 
get a voucher and they might not be able to find a house to 
live in because there are no landlords that will take them. So 
by increasing that, you are guiding them into a particular 
project.
    We administer at Kentucky Housing approximately 4,600 
vouchers, Housing Choice Vouchers. There is a waiting list of 
5,600. So while the increase in cap, the 20-percent cap would 
be beneficial, vouchers are the single most effective resource 
to address a homelessness issue, so obviously increasing those 
would certainly help.
    Mr. Barr. Thank you for your testimony, Mr. King, and I 
look forward to working with you and the Kentucky Housing 
Corporation to address that arbitrary statutory cap and looking 
forward to working with Chairman Duffy to achieve that once we 
get the THRIVE Act signed into law.
    Ms. Minton, you talked a lot about--and we applaud the 
great work of the Chrysalis House and what you do for women and 
newborns suffering from neonatal abstinence syndrome. And we 
want to work with you on the problems that you described with 
HUD. We want to fix those problems, so I look forward to 
working with you on that. That is precisely why we introduced 
the THRIVE Act, to provide alternative resources to replace 
some of the funding that you lost. And I think your respectful 
pushback of the Housing First program I think is appropriate 
for us to take into consideration as we exercise oversight over 
HUD and encourage HUD to reevaluate the priorities and the need 
for more transitional housing services.
    But my question to you, Ms. Minton, is because you are at 
the frontlines of the neonatal abstinence syndrome issue, could 
you just describe for the record, at least here in central and 
eastern Kentucky, the dimension of the problem of women who 
come to you with newborns who are suffering from this problem?
    Ms. Minton. Well, Chrysalis House prioritizes pregnant 
women, so we try to get the women in before the baby is born, 
and that we are working with U.K. PATHWAYS and Beyond Birth to 
ameliorate the effects so that the baby is born healthy or as 
healthy as possible. And so we are working closely with the 
doctors.
    And Lindy left, but we have our board meeting tonight at 6 
o'clock to officially vote on opening a new 16-bed facility on 
the grounds of Eastern State Hospital for 16 pregnant and 
postpartum women, working very closely with U.K. PATHWAYS and 
Beyond Birth, and so we will have access to MAT services--the 
buildings are right next door on the campus--and hep C services 
because that is another problem with many of the women that we 
work with, and just trying to partner as best we can to help 
the women and their babies because they do recover and they do 
get better.
    I think that one of the things that Dr. Walsh alluded to is 
the number of women in rural Kentucky who do come to Lexington 
for services but are often reluctant to enter into treatment, 
especially long-term treatment. And so that is one of our 
obstacles that we are working on, and trying to do the 
telehealth I think is making great strides for our State.
    Mr. Barr. Thank you. Mr. Robinson, thanks for your powerful 
personal testimony, and I wanted to ask you from your 
experience, do the program participants that you contemplate 
coming into your program, how will they have success finding 
work, and how will they have success moving out of government 
assistance? What are some of the factors that will, in your 
judgment, lead to hope and thriving as you say, as opposed to 
just getting by?
    Mr. Robinson. Well, there has been a big effort for reentry 
programs, whether that is helping people transition out of 
prison or transition out of 30-day treatment programs or detox 
facilities. We have put a lot of effort there. And the problem 
is that often when that person leaves jail, if they leave a 30-
day treatment program, there is a big gap from that moment when 
they walk out the jail cell, they walk out the treatment center 
until they are able to even be employed. And there are some 
things on the life skills side; there are some things on 
financial literacy. Those things have to be a part of that gap 
between when they come in crisis to putting them in a career.
    The other thing is you have to get them on a path where 
they can see a career path that is better than a petty drug 
dealer because we compete in their mindset with why should I go 
work a minimum wage job when I can do one petty drug deal. And 
so the hope has to be a real hope. It has to be a real economic 
opportunity. It has to be that you can become somebody who can 
support yourself, support your family, and we are not competing 
with that.
    And so I think having wraparound services like what the 
Shepherd House is doing, what we are doing, what others are 
doing, Recovery Kentucky, to get people in that zone where we 
lose most of them and make sure they have peer support, make 
sure they have counseling, make sure that they have people that 
really are reparenting them because a lot of the things that we 
do we take for granted, getting up every morning, knowing what 
is appropriate to wear to work. If we leave that to them when 
they have never done that, we are setting them up to fail. So 
our efforts, whether it is MAT, whether it is abstinence, 
whether it is whatever, all of those are going to require us to 
have transitional housing, workforce development.
    One of the things in the CAREER Act is not only giving more 
targeted project-based vouchers, not only giving more targeted-
based community block grants, but giving targeted workforce 
development, that the WIOA funds have a certain amount that are 
targeted for people coming out of addiction because I have seen 
time and time again if somebody doesn't have that hope, then 
they are going to go right back to petty drug dealing, and it 
is not going to be long before they are going to relapse and 
they are going to be right back in the mess that we have 
already once rescued them out of. Instead, if we will make the 
investment with a whole-person approach, we can see them 
succeed.
    Mr. Barr. Thank you for that. And, Mr. Thomas, first of 
all, let me just address Donna and express my condolences to 
you for the loss of your son Luke, and that is exactly why we 
are here today. Luke is exactly why we are holding this 
hearing, and we want to make sure that we bring every resource 
to bear from Congress to prevent this happening to any other 
family.
    And the Shepherd's House is a wonderful program that needs 
resources, and Congress has responded to this epidemic with 
billions of dollars in appropriations, but guess what? Not all 
of the resources that we have appropriated are actually 
addressing the transitional housing need. And so I fully, fully 
agree with Mr. Thomas' testimony that we need to make sure that 
there are no shortages of beds, and we need to rethink all of 
the priorities within the context of these appropriations so 
that organizations, not-for-profits like Shepherd's House, are 
eligible to receive some of the resources. And again, that is 
what is motivating the THRIVE Act.
    So, Mr. Thomas, you mentioned no Federal funding to the 
Shepherd's House outside of some Federal Home Loan Bank and KHC 
funds. How would the THRIVE Act specifically help Shepherd's 
House and similar programs?
    Mr. Thomas. Point-blank, it is a game-changer. I spent a 
ton of time reading it and researching it. We made a joke in 
getting ready for this. We are at the Shepherd's House, we are 
the forgettables. And by that I mean, my clientele falls 
through the cracks. We don't qualify for anything. I understand 
why pregnant ladies will go first. It makes absolute sense to 
me. But again, we are getting left behind. We are the 
forgettables. So our guys fall through the cracks.
    But what I love about it, what I love about the THRIVE Act, 
I think it was the fact that it ties it all together as the 
whole person as opposed to just addressing one issue because 
that is what always happens to a drug addict now. It is always 
one issue that takes them out, so you get them sober, but then 
they don't have anywhere to live so they get high. Well, you 
get them sober and then it turns out they are bipolar and you 
didn't provide them any mental health services, so they 
relapse. You get them sober and they get fired from their job 
and they can't get another job, so they get high.
    The thing I love about the THRIVE Act is it ties it all 
together and it allows us to work as a team on this panel with 
the THRIVE Act. So now, when you are putting them and giving 
them vouchers for a place to live, you are not just saying here 
is your money, good luck. You are saying here is your money, 
here is peer support, here is job training, here is mental 
health counseling, here is individual counseling, here is group 
therapy. Well, now, you have provided them with all the tools 
they need to take that voucher.
    And eventually the endgame always has to be--I would 
honestly say this and hope not to offend, but if I had a guy 
that was 10 years' sober still living in Section 8, I would be 
extremely upset because the endgame has to be move them on in 
life. And I think that gives them the start that they need. And 
I thought it was genius. I am so excited about it, so thank 
you.
    Mr. Barr. Well, thank you for the testimony.
    And, Dr. Walsh, we want to get to Congressman Guthrie here, 
so just a quick comment and a quick question. The comment is a 
follow up from Chairman Duffy's exchange with you about pain 
management reimbursement and narcotics avoidance. The American 
Society of Anesthesiologists and some anesthesiologists in 
Kentucky are doing some groundbreaking work on enhanced 
recovery after surgery. We need to pursue that. I think 
Congress needs to appropriate funding to tie narcotics 
avoidance to pain management, and we need to work with our 
physician community to do that. So I appreciate the fact that 
the accreditation standards may be revisiting that issue, and I 
want to work with you and U.K. and other healthcare facilities 
to achieve that.
    The question is, following their treatment at the 
University of Kentucky--and the PATHWAYS program is a wonderful 
program; I had the privilege of visiting with the fine people 
there at U.K.--are there currently sufficient housing options 
for these women and their babies to have a safe place to live 
in a sober environment?
    Dr. Walsh. So I think that, overall, hearing from the other 
panelists that there are insufficient opportunities for 
housing, when we hear about waitlists and the need for an 
additional, what was it, over 4,000 vouchers to meet the needs. 
And so we really need expanded access, but we need expanded 
access to meet people where they are.
    So, for example Chrysalis House, which is an outstanding 
program, allows women with their children. Many programs don't 
allow that. As I said in my testimony, many programs will not 
allow people who medication is part of their recovery to 
participate in their programs. And I think that we need to 
align what it is that we know from the evidence that works.
    Let me be clear: My position is not that medication is the 
sole answer, but it is an important component. And so I think 
that for places to actually make a decision and say we are 
going to exclude this evidence-based practice that has been 
endorsed by the Federal Government and not allow that in their 
setting I think is a disservice to the patients that we are 
trying to reach. So I think that we need additional resources, 
but we also need to have a more integrated approach.
    And so Mr. Thomas just talked about integrating and 
everyone is talking about holistic, but I think that we really 
need to think about who the patients are, where they are, and 
then what unique things they bring and then loosening up some 
of the reins around some of the restrictions that we put on 
some of the programs. And some of them are from within.
    Mr. Barr. Thank you, Dr. Walsh. And my time is more than 
expired, but again, as I yield back, I want to thank Chairman 
Duffy for coming all the way from Wisconsin to be with us in 
Kentucky, for your leadership on this issue, for helping as you 
chair the subcommittee, moving the THRIVE Act through the 
markup process and off the House floor over to the Senate. 
Thank you for your continued dedication and commitment to this 
very important issue.
    And, Congressman Guthrie, thank you as well for your 
leadership and for joining us here today in Lexington.
    I yield back.
    Mr. Duffy. The gentleman yields back.
    The Chair now recognizes the other gentleman from Kentucky 
from the Energy and Commerce Committee, a Ranking Member on the 
Health Committee, also the author of the Comprehensive Opioid 
Recovery Centers Act, which passed the House almost 
unanimously, but like many other bills, is still waiting action 
I believe in the Senate.
    Mr. Guthrie. Right.
    Mr. Duffy. That is the story of our life.
    With that, the gentleman from Kentucky, Mr. Guthrie, is 
recognized for as much time as he may consume.
    Mr. Guthrie. Thank you very much. I appreciate it. I guess 
I should take back all my nice comments about Wisconsin after 
your comment about that ballgame, but, no, it is great. It is a 
great rivalry. It is a great rivalry.
    So I was going to ask my first question, and I think it has 
really been answered. But I think, Mr. King, since you are in 
the housing world more than the recovery world really, just 
what specifically the THRIVE Act was empowering you to do that 
you can't do now. I know a lot of people--so we come to the 
agreement, we all agree, and then I said earlier that leaving 
inpatient care and going into sober living is vital. So what 
specifically does the THRIVE Act allow you to do that you can't 
do now?
    Mr. King. Well, I think the THRIVE Act goes directly to the 
participants. It is a set-aside of the Housing Choice Vouchers, 
and it goes directly to the nonprofits.
    Mr. Guthrie. The Section 8 isn't administered to you at 
all?
    Mr. King. It is a portion, I believe, the funds. And I--
    Mr. Guthrie. OK. So I thought Section 8 probably went 
through you guys as well, but it doesn't, so--
    Mr. King. No, it--
    Mr. Guthrie. I am not on this committee so--
    Mr. King. It--
    Mr. Guthrie. --I don't know how Section 8 was administered 
through--
    Mr. King. Yes. But I think it is good in the fact that it 
targets a need for housing in recovery services. And again, it 
goes back to my suggestion that we increase that cap of 20 
percent because we need to target specifically those 
individuals in recovery.
    Mr. Guthrie. So it would help your specific role to do it 
more than this specifically?
    Mr. King. Yes. And I would say that by increasing that cap, 
I can do more at KHC in line with the THRIVE Act.
    Mr. Guthrie. Oh, perfect. Great.
    So, Dr. Walsh, I am interested in the First Bridge Clinic 
you were talking about earlier. So I am on the Healthcare 
Subcommittee of Energy and Commerce, and we had a group of 10 
parents that came in that had lost a child and one that 
specifically just--so when you talk about 50 bills, well, what 
are you doing in 50 bills instead of one big bill? But there 
are a lot of different things we found were roadblocks.
    And we had one family from New Jersey that specifically 
said they got a phone call that their son had overdosed and 
passed away. They didn't get the phone call from the emergency 
room until they came to pick up his body. That was actually his 
eighth trip to the emergency room, and he was over 18. He was a 
college student. They were paying his bills. He was on their 
insurance. The parents were still completely responsible for 
him, but by law, he was an adult.
    So because of HIPAA (Health Insurance Portability and 
Accountability Act), that is what we are trying--some privacy. 
We understand the privacy side, but we also understand that 
parents are wanting the information, too, of their child. And I 
don't know the specifics of every trip to the emergency room, 
but you leave yourself going, if somebody has been there 8 
times, is there not some connection between the emergency care 
and getting them into care? So exactly--if you want to further 
talk about First Bridge, I would love to hear a little more.
    Dr. Walsh. Sure. I am happy to talk about that. But if you 
don't mind, I will just reflect on what you just described 
because what you are describing is exactly what is happening 
all over the country. So people come in and out; it is a 
revolving door. The emergency department staffs are completely 
overwhelmed, and in many places they have absolutely nothing to 
offer to people, so they really are just treating them and then 
getting them out the door. People will come, they will be 
reversed with their overdose in the ambulance. They won't even 
come in the door. They don't want to be at the hospital. So we 
are not really making that connection at that very critical 
time when we have identified someone who is at high risk.
    I can tell you it is actually even very difficult for us to 
count accurately the number of overdoses that are occurring 
within any hospital system because we are not even necessarily 
testing people's urine to determine that they have opioids and 
that is the cause of the overdose because if you give them 
naloxone and it works, then you know that is what it is, and 
they just send them back out. So at every level this has just 
been an incredible challenge.
    And what we are trying to do with the First Bridge Clinic 
is really provide an immediate warm handoff, and that way, 
within an integrated system, the physician can identify that 
this person has either an overdose or maybe they have an ulcer 
from injecting drug use or some other thing that alerts them to 
the fact that the person has an opioid issue. They can do a 
pulldown on the computer to do an electronic referral directly 
to us. If they reach out to us from the emergency department, 
we have actually spoken to patients from their beds in the 
emergency room. We can get hospital transportation to bring 
them to our clinic, and we can try to start them on treatment 
right away.
    We have just started the clinic in January. We now have 5-
day-a-week coverage. We are working on having some walk-in 
hours so people don't have to deal with making an appointment 
even; they can just show up.
    I can tell you the issue that you are raising about adult 
children whose parents are still really the caretakers, a lot 
of patients we have are brought in by their parents. They are 
adults, but they are brought in by their parents, and they sit 
in the waiting room and they have an argument about things, and 
then the person with the disorder leaves. They don't want to be 
there. They feel like they are being coerced, and the parents 
really have no influence.
    And the HIPAA issue is not just that the systems aren't 
connecting. This area of medicine is so completely separate 
from everything else. If someone is in a methadone program, we 
don't have any way of knowing that in our program because that 
is also siloed by Federal law. So I think that we need to come 
up with some creative solutions for figuring out how we can 
move forward to actually empowering people to get the help that 
they need for their family members.
    I know Massachusetts is working on a law that would 
actually require people to be forced into care. I am not one 
personally who agrees with that, but I think people are looking 
at innovative solutions so that we can try to help people who 
either are failing to recognize that they need help but really 
are on the verge of a complete crisis or death.
    Mr. Guthrie. Yes, trying to get that information where 
emergency rooms will have that information because you are 
right; it is siloed. If you are in treatment or have drug 
issues, it is not in the medical records by law.
    Dr. Walsh. Even if it is in the same health system.
    Mr. Guthrie. Exactly. And so actually what is interesting, 
one of these 50 bills is on specifically--and you couldn't have 
two different Members of Congress. There is one gentleman from 
Portland, Oregon, who would be more you would describe to the 
left, another from Oklahoma would certainly be described more 
conservative, to the right, and those two together--and the 
debate was not really Republican/Democrat, left/right. It was 
more different groups on privacy versus practicality of having 
this done. And that bill did pass. It is in the Senate. So it 
is interesting. I think a lot of people outside of Washington 
think everything is just always a battle, but there are groups 
of people who have different opinions on other things that come 
together and they have common solutions. And that bill has 
passed.
    And I guess I am going along, but what is interesting as I 
walk into every--so I told you the last couple of weeks I have 
been going to recovery centers, and you hear the patients 
there, the people talking, it just seems like everything is 
working well.
    I did bring up the--you talked about the 16 beds. That is 
by Medicaid law, and we are looking for opioids, expanding 
that, because I saw one place that had an eight-bed room and an 
eight-bed room and a different administration so they could 
have--or that is eight beds, 16--or eight rooms had two to a 
room, so they essentially had 32, but they were trying to get 
around the law. We need to fix that so people aren't having to 
game it to get things done.
    But the point we were talking about opening that 16-bed 
exclusion or limit for opioid, and it should be for more but it 
is just funding I guess we get back to. But one person when I 
said that, well, if you do that, people just create these big 
warehouses that have 100 beds. They will have people in them 
and not get the treatment.
    So the question--and in those--so, Dr. Walsh, this is for 
you. In those 10 families we had, there was one specific 
family. They had different issues they were trying to address. 
And one family, typically from high-income families, I will 
spend anything it takes to get my child--so they were from New 
Jersey as well, suburban New York, and they were very high-
income family, and whatever it takes, and so they sent their 
child to Florida, had passed away. It is everywhere, not just 
Florida, but it seemed to be an industry down particularly in 
southern Florida where it was like patient brokering, which was 
new to me where the intent didn't seem--this parent said that. 
I am not saying it because I don't know, but the parent said 
the intent didn't seem for their son to get out, but son just 
to go from one to the other to the other as long as they were 
paying.
    And so I guess to get into if we are going to warehouse--
the ones I have seen I have been impressed with, but how do we 
know a good one? I have a bill called the Comprehensive Opioid 
Recovery Centers to try to sort out how do we--what kind of 
evaluations they do in placement, be longer than a few-minute 
answer. But kind of in just--the THRIVE program, the THRIVE 
Act, because it is demonstration, how should we judge these 
things and test them and evaluate them?
    Dr. Walsh. That is a very important question, and there 
really isn't a standard. And I can tell you that the American 
Society of Addiction Medicine does have standards of care, and 
they have different levels of care that they define that may be 
needed depending on the severity of the disorder. And you could 
use that framework, and people have talked about using that 
framework to try and grade treatment facilities.
    However, the problem at least here in Kentucky is that we 
only have a few of those levels of care. We don't have the 
whole complement based on what the ideal circumstance would be. 
We are not the only ones, though, so I do think that there are 
evidence-based practices that have been defined and they are on 
the website for SAMHSA. We know what they are. I think that we 
can start by developing guidelines that check off those boxes 
and that actually are doing the monitoring that is necessary.
    So when somebody is saying that people are successfully 
abstaining, then I want to see your drug screen results from 
that. I don't want to see just self-report. So, like Mr. Thomas 
said, when they are linking with an employer, they are testing 
people 3 times a week, they know exactly what is happening. 
That is not occurring in all settings.
    In some of the treatment programs, there is a lot of drug 
use that goes on. And I am not talking about anybody that is at 
this table. I am just saying that there are places where, as 
you described, they are in it for the profit, and they are less 
concerned about the well-being of people as long as they are 
getting care.
    There was a big expose about some of those programs in 
southern Florida, and there is some suggestion that those same 
places that were pill mills before have been shut down, and now 
this is a different business model for them. We know that there 
are a lot of overdoses, fatal overdoses that take place in some 
of these programs. They are not publicized. That is not a good 
outcome when that happens. But oftentimes, people are not made 
aware of it.
    So I think that we can take what we know from the 
scientific literature about how one would do a study to assess 
the efficacy of a treatment and borrow those same types of 
monitoring practices and implement them and customize them for 
recovery houses and for treatment programs for residential 
because we know what the goals are. If the goals are to get 
jobs, if the goals are to get somebody so that they are 
surviving, these are really objective markers. But I think then 
you want some external source doing that evaluation. You don't 
want to necessarily have people reporting on their own without 
some external evaluation.
    Mr. Guthrie. Thank you. And I am not going to ask another 
question, but I just want to say I know Mr. Robinson has been 
to Washington to testify. Mr. Boggs, I appreciate what you guys 
do specifically, and all of you.
    I am also on the Education and Workforce Committee, 
Chairman of the Higher Ed Subcommittee that has the 
jurisdiction of the Workforce Investment Act or WIOA 
Opportunity Act, and so it is all vital to tie together. And I 
think you are seeing all sides in Washington. As Chairman Duffy 
said, we are all agreeing that we need to put this together, 
and I think once we know we are paying for the good programs 
and the funding, we want to make sure we are, the funding is 
following, and so there is a lot of work to be done but a lot 
of effort is being done and a lot of--trying to understand it 
and trying to comprehend it and trying to move forward and 
getting--and I am left convinced, getting people into sober 
living is probably our most critical part now because we have a 
lot of residential treatment. There may be a waiting list for 
them but not a big control on the sober living side of it, and 
so I appreciate Congressman Barr's leadership and appreciate 
everybody coming together to talk about that because this is 
important to highlight.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Duffy. The gentleman yields back.
    I want to again thank our panel for their participation in 
today's hearing. I want to thank Chairman Barr for all the work 
he did in putting this hearing together, making sure we had a 
well-rounded panel, providing us excellent insights.
    If I could make one parting note, the best ideas for 
legislation come not from Washington, it comes from all of you 
who are on the frontlines doing this work. And there is a great 
partnership that happens. If you have an idea and you get it to 
Mr. Guthrie, Mr. Barr, or myself and we introduce it, one, we 
have stolen your idea and we look really smart; and two, you 
get your idea into legislation. But in the end we are helping 
people. We are getting the right bills, the right legislation 
that do the most to help the most vulnerable among us, and that 
is what is really critical here.
    And I just want to thank all of you for the work that you 
do, for taking the time out of your day to participate in this 
hearing so we can take the information garnered in this hearing 
back to our colleagues in Washington. So thank you for your 
time and your effort and your good work.
    Without objection, all members will have five legislative 
days within which to submit additional written questions to the 
chair, which will be forwarded to our witnesses. If we have any 
of those additional questions, I would ask the witnesses to 
respond as promptly as feasibly possible.
    With that, and without objection, this hearing is now 
adjourned.
    [Whereupon, at 11:05 a.m., the subcommittee was adjourned.]

                            A P P E N D I X



                            August 16, 2018
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
